                                 NATIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGINIA 22230




    OFFICEOF                            20 November 2000
INSPECTORGENERAL
                  !
  TO:             I   The File
              I
  FROM:               SA

              t
  SUBJECT: 1          Case Closeout, 1-00080015


  1. This case was opened on 28 August 2000 based on information received from-
                                               pertaining to allegations of improp'er
  behavior b                                  gations were general in nature.

  2. A review of the NSF government travel documents and the information received from
  the ~inancialCrimes Enforcement Network did not substantiate the allegations. This
  investigati{n is closed.
